No. 20-1603
IN

rnn

$uprcme @ourt tttbe @nite! $rtutes
SUSAN BENNETT,
Petitioner,

v

AMERICAN FEDERATION OF STATE, COUNTY, AND MUNICPAL
EMPLOYEES, COUNCIL 3]., AFL-CIO, ETAL.,
Respondents.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit

CERTIFICATE OF COMPLIANCE

Undersigned counsel, a member of the Bar of this Court, certifies pursuant to
Supreme Court Rule 33.1(h) that the BRIEF IN OPPOSITION OF RESPONDENTS
AFSCME COUNCIL 31., AFSCME LOCAL 672, AND MOLINE-COAL VALLEY
SCHOOL DISTRICT NO. 40 complies with the typeface requirement of Supreme
Court RuIe 33.lft), being prepared in Century Schoolbook 12 point for the text and
10 point for the footnotes, and the brief contains 4,242words, excluding the parts that
are exempted by Supreme Court RuIe 33.1(d).

J
(
of Record)
BnpoHopr' & Kersnn, P.L.L.C
805 15th Street N.W.
Suite 1000
Washington, DC 20005
202.842.2600
j karab e ll@b re dhoff. co m

Counsel for AFSCME Council 31 and
AFSCME Local 672
Executed on September 27,202L

